<html>
<title> - OVERSIGHT OF THE URBAN AREA SECURITY INITIATIVE GRANT PROGRAM</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


     OVERSIGHT OF THE URBAN AREA SECURITY INITIATIVE GRANT PROGRAM

=======================================================================

                              JOINT HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                    TRANSPORTATION AND PUBLIC ASSETS

                                AND THE

                   SUBCOMMITTEE ON NATIONAL SECURITY

                                 OF THE

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 15, 2016

                               __________

                           Serial No. 114-98

                               __________

Printed for the use of the Committee on Oversight and Government Reform


[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


         Available via the World Wide Web: http://www.fdsys.gov
                      http://www.house.gov/reform
                      
                               _____________
                               
                               
                          U.S. GOVERNMENT PUBLISHING OFFICE
22-963 PDF                      WASHINGTON : 2017                          
                      
_______________________________________________________________________________________                      
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="0265726d42617771766a676e722c616d6f2c">[email&#160;protected]</a>  
             
              
              
              
              
              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                     JASON CHAFFETZ, Utah, Chairman
JOHN L. MICA, Florida                ELIJAH E. CUMMINGS, Maryland, 
MICHAEL R. TURNER, Ohio                  Ranking Minority Member
JOHN J. DUNCAN, JR., Tennessee       CAROLYN B. MALONEY, New York
JIM JORDAN, Ohio                     ELEANOR HOLMES NORTON, District of 
TIM WALBERG, Michigan                    Columbia
JUSTIN AMASH, Michigan               WM. LACY CLAY, Missouri
PAUL A. GOSAR, Arizona               STEPHEN F. LYNCH, Massachusetts
SCOTT DesJARLAIS, Tennessee          JIM COOPER, Tennessee
TREY GOWDY, South Carolina           GERALD E. CONNOLLY, Virginia
BLAKE FARENTHOLD, Texas              MATT CARTWRIGHT, Pennsylvania
CYNTHIA M. LUMMIS, Wyoming           TAMMY DUCKWORTH, Illinois
THOMAS MASSIE, Kentucky              ROBIN L. KELLY, Illinois
MARK MEADOWS, North Carolina         BRENDA L. LAWRENCE, Michigan
RON DeSANTIS, Florida                TED LIEU, California
MICK, MULVANEY, South Carolina       BONNIE WATSON COLEMAN, New Jersey
KEN BUCK, Colorado                   STACEY E. PLASKETT, Virgin Islands
MARK WALKER, North Carolina          MARK DeSAULNIER, California
ROD BLUM, Massachusetts              BRENDAN F. BOYLE, Pennsylvania
JODY B. HICE, Georgia                PETER WELCH, Vermont
STEVE RUSSELL, Oklahoma              MICHELLE LUJAN GRISHAM, New Mexico
EARL L. ``BUDDY'' CARTER, Georgia
GLENN GROTHMAN, Wisconsin
WILL HURD, Texas
GARY J. PALMER, Alabama

                   Jennifer Hemingway, Staff Director
                 David Rapallo, Minority Staff Director
                          Mike Howell, Counsel
                           Willie Marx, Clerk
            Subcommittee on Transportation and Public Assets

                     JOHN L. MICA Florida, Chairman
                     
MICHAEL R. TURNER, Ohio              TAMMY DUCKWORTH, Illinois, Ranking 
JOHN J. DUNCAN, JR. Tennessee            Member
JUSTIN AMASH, Michigan               BONNIE WATSON COLEMAN, New Jersey
THOMAS MASSIE, Kentucky              MARK DeSAULNIER, California
GLENN GROTHMAN, Wisconsin, Vice      BRENDAN F. BOYLE, Pennsylvania
    Chair
                                 ------                                

                   Subcommittee on National Security

                    RON DeSANTIS, Florida, Chairman
JOHN L. MICA, Florida                STEPHEN F. LYNCH, Massachusetts, 
JOHN J. DUNCAN, JR., Tennessee           Ranking Member
JODY B. HICE, Georgia                ROBIN KELLY, Illinois
STEVE RUSSELL, Oklahoma, Vice Chair  BRENDA L. LAWRENCE, Michigan
WILL HURD, Texas                     TED LIEU, California
                           
                           C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on July 15, 2016....................................     1

                               WITNESSES

Mr. Brian E. Kamoie, Assistant Administrator for Grant Programs, 
  Federal Emergency Management Agency
    Oral Statement...............................................     7
    Written Statement............................................    10
Sheriff Jerry Demings, Orange County Sheriff's Office
    Oral Statement...............................................    16
    Written Statement............................................    19
Chief John Mina, Orlando Police Department
    Oral Statement...............................................    48
    Written Statement............................................    52
Mr. Walter Purdy, President, Terrorism Research Center
    Oral Statement...............................................    57
    Written Statement............................................    59

                                APPENDIX

Department of Homeland Security Appropriations Bill and Report 
  Language for FY 17, Entered by Chairman John Mica of the 
  Transportation and Public Assets Subcommittee..................    78
Government Accountability Office's Report on Preparedness for the 
  City of Orlando, Kissimmee, and Stanford Florida, Entered by 
  Rep. Gary Palmer (AL)..........................................    79
February 19, 2016, Letter from Brian E. Kamoie, Assistant 
  Administrator for Grant Programs,FEMA, Department of Homeland 
  Security, to Chairman John Mica, Entered by Chairman John Mica.    81
June 29, 2016 Letter from Chairman John Mica to Chairman of the 
  House Judiciary Committee Bob Goodlatte, Entered by Chairman 
  John Mica......................................................    85
House Homeland Security Committee's list of Select 
  Counterterrorism Bills, Entered by Chairman John Mica..........    86
The 2016 Allocation of Urban Security Grant Funds and Threat 
  Levels.........................................................    87

 
     OVERSIGHT OF THE URBAN AREA SECURITY INITIATIVE GRANT PROGRAM

                              ----------                              


                         Friday, July 15, 2016

                  House of Representatives,
 Subcommittee on Transportation and Public Assets, 
   Joint with the Subcommittee on National Security
              Committee on Oversight and Government Reform,
                                                   Washington, D.C.
    The subcommittee met, pursuant to call, at 9:03 a.m., in 
Room 2154, Rayburn House Office Building, Hon. John L. Mica 
[chairman of the subcommittee] presiding.
    Present: Representatives Mica, DeSantis, Turner, Palmer, 
Meadows, and Lynch.
    Mr. Mica. Good morning. I'd like to welcome everyone this 
morning to the Committee on Oversight and Government Reform. 
This morning we're actually conducting a joint hearing with the 
Subcommittees on Transportation and Public Assets and also the 
National Security Subcommittee. The title of the hearing this 
morning is--and subject, is Addressing Oversight of the Urban 
Area Security Initiative Grant Program.
    I probably can't start this hearing without just maybe a 
moment of silence both to remember the 49 individuals who were 
killed in Orlando, and then as we all saw last night in Nice, 
our great allies, the French, lost some 84 people. So we'll 
just take a minute and pause here and remember those folks.
    [Moment of silence.]
    Mr. Mica. Thank you. It's quite fitting that we do meet 
today to discuss one of the government programs that tries to 
deal with the terrorist threat. I'd like to thank our witnesses 
for being with us and the members attending this morning.
    First I want to say that the Subcommittee on Transportation 
and Public Assets and the Subcommittee on National Security 
will order, without objection, and the chair does state at this 
point that he is authorized to declare a recess at any time in 
this hearing.
    Now, the order of business will be as follows. We will have 
opening statements from the members that are here, then we will 
introduce our witnesses, witnesses will be sworn. Each of them 
will testify. After we have those introductions and testimony, 
we will go to questions. We'll wait on having questioning until 
we've heard from all of the witnesses.
    So with that, I want to welcome again everyone, 
particularly our witnesses, and I'll start with my opening 
statement.
    Again, we come together to look at a Federal program that 
is designed to help our local and State governments deal with 
the terrorist threat that our Nation and the world is facing 
right now. This program, which is the Urban Security 
Initiative, was established after 9/11 to aid our State and 
local governments, and particularly our first responders, with 
giving them Federal assistance, because they are our first line 
of defense in terrorism, and providing Federal grants.
    Over the last few years, we've given on average a billion 
dollars a year on these grants to State and local governments. 
Unfortunately, I had the experience of working with some of my 
local governments in Orlando, and my district 3 years ago was 
changed to represent more of the urban core of Orlando, and at 
that time I got a chance to hear from both the sheriff of 
Orange County and also the police chief, John Mina, who are two 
of our witnesses today. They told me there was something wrong 
with the assessment under this program that's conducted by DHS 
and FEMA, and they told me that our Central Florida area had 
the risk assessment changed, in fact, lowered, and it was 
lowered so much that, in fact, they were denied Federal 
assistance under the program that was designed to give them 
additional resources to deal with the terrorism threat.
    So unfortunately, the Federal Government failed. We won't 
get into other failures of the Federal Government we've heard 
about, by Federal law enforcement and other agencies, but today 
we're going to focus on the issue of the failure, the dramatic 
failure of missing the target in Orlando, Florida, in that 
particular instance.
    And then this isn't just a criticism of that particular 
failure. This is also an effort to find out how we can make our 
communities safer, how we can make this program work better, 
and how we can get the resources to those who are on the first 
line of defense, and do that in an orderly and more effective 
and targeted fashion.
    Unfortunately, again, working with this issue even before 
the horrible events that took place in Orlando, with Sheriff 
Demings and Chief Mina, we wrote to and appealed the decisions 
by FEMA and DHS, saying that Orlando had a significant security 
terrorist risk threat. Each time, we were denied.
    I have to put up on the screen my comments on January 27th 
of this year. In the next to last sentence, I wrote Secretary 
Johnson and I said, ``If Central Florida became a target, it 
would be a national disaster.'' Those were my words to the 
Secretary back then.
    Since DHS and also FEMA would not change their assessment, 
we moved forward. And even before, again, the horrible Pulse 
massacre, we began changing legislative language. I'd like to 
submit for the record also language that we have included in 
the DHS appropriations bill, and that's both legislative 
language and report language to make changes in this program, 
get back to Congress some of the data and information and 
assessment prior to it becoming effective. So without 
objection, we'll put that in the record.
    Since, again, the horrible events in Orlando, our committee 
and subcommittees have conducted an investigation. Let me just 
go over briefly and conclude with some of our findings. Some of 
this is astounding. Of the money since 2011, almost half of the 
Urban Area Security Initiative funds, almost half of these 
funds are unexpended. We have a slide here that shows $1.1 
billion of the $2.8 billion in these awards, or about 40 
percent, remain unexpended. It's stunning that while Orlando 
got no money the last 2 years, there are unexpended funds, now 
listen to this, from Boston, 2011, $591,000, in New York City, 
$11 and a half million since 2012 sitting idle, Los Angeles, 
sitting idle, $18, almost $19 million, and since 2014, $68 
million sitting idle. Tampa, which was one of the recipients 
and Miami are the two that received awards in Florida, Tampa 
had $170,000 left over from 2014.
    So we're going to need to look at how we get this money 
distributed, how it doesn't sit idle, particularly when we have 
the terrorist threat that we have today.
    This grant program has awarded $8.2 billion since 2003. 
Also we found in our investigation, and reviewed, 2012 is the 
most recent support, but we found expenditures that weren't 
justified in this program. Michigan bought 13 snow cone 
machines; in Ohio, we saw funds from their award given to 
support a 5-day spa junket featuring the actors on ``The 
Apocalypse''. These are just a couple of examples that we found 
of wasteful spending in the program.
    So we are in fact asking today, and I'll ask with--Chairman 
Chaffetz has agreed to ask and we will have a letter that we'll 
submit later in the record for review by the inspector general 
of three areas, both looking at the assessment area, looking at 
unexpended funds, and then thirdly, at wasteful spending. We 
need an update and we need that now.
    So, again, we know that Orlando had received money before, 
was denied money the last 2 years. We do know that Orlando and 
Central Florida used money on equipment, training, readiness 
exercises, and communications systems, and other things that 
probably could have helped. Would it have stopped this 
terrorist attack? We don't know that, but, again, it's our job 
to make certain that these Federal resources are used in a 
proper manner.
    So those are some of the things that we found. We've tried 
to warn FEMA. We tried to correct this before this took place. 
That didn't happen. Now with the threat that we face in our 
community and across the Nation, as we've seen we're all 
vulnerable, we've got to do a better job.
    I thank you again as witnesses for coming today. Let me 
yield to Mr. Lynch, our ranking member.
    Mr. Lynch. Thank you. Thank you, Mr. Chairman, and Mr. 
Chairman DeSantis. And to our witnesses, Sheriff Demings, thank 
you so much, Chief Mina, thanks for coming up from Florida. We 
appreciate it. And Mr. Purdy and Mr. Kamoie. Is that the right 
pronunciation, Kamoie?
    Mr. Kamoie. It is.
    Mr. Lynch. Or is it close enough?
    Mr. Kamoie. It is, Congressman. Thank you.
    Mr. Lynch. You're sure? Okay. All right. Thanks for being 
here.
    Mr. Chairman, at the outset, I want to join you in my 
thoughts and prayers for the people of Nice, France, the 
victims, their loved ones, and all those affected by the 
horrific terrorist attacks in southern France yesterday. This 
is the third major terrorist attack in France in the last 19 
months. The State Department has confirmed that the victims 
include two American citizens. They are Sean Copeland and his 
11-year-old son, Brody. They are from the Austin, Texas, area. 
And our hearts and prayers go out to the Copeland family and 
the people of Texas.
    Mr. Chairman, again, I think this hearing is especially 
important in the wake of the horrific attacks in Orlando, and 
we continue to grieve and to pray for the victims' families in 
Orlando as well.
    I'd like to thank both committees for participating in this 
hearing. And I do want to say that, Sheriff Demings and Chief 
Mina, we have heard, it has been widely communicated that your 
activities and your loyal, dedicated service has been a 
blessing before and after and during the attacks in Orlando, 
and I think that experience makes you especially valuable in 
terms of your perspective on how we might more effectively 
allocate the resources, substantial resources that we have out 
there, especially with these urban area grants.
    The Urban Area Security Initiative, also known as UASI, is 
one of the three programs that make up the Federal Emergency 
Management Agency Homeland Security grant program, and they 
collectively provide vital Federal funding to States and 
localities to prevent and respond to potential terrorist 
attacks and other emergencies.
    We have had our own struggles with this program in the city 
of Boston and the greater Boston area. I think we were helped, 
ironically, because of the fact that we had the attacks during 
the marathon, and that the realization of vulnerability and the 
threat assessment in that area gave us leverage, but we were 
not always recognized as an area that needed this funding. And 
there are several cities that, because of the factors that are 
applied in these allocations, there are other cities across the 
country, San Antonio, I know, in Texas has also been dropped 
from the list, and there's got to be a better way for us to 
recognize and do this threat analysis so that places like 
Orlando and Central Florida will receive the funding that they 
need.
    The purpose of the urban area security grant is to assist 
cities in their anti-terrorism preparedness and response 
efforts. In particular, the program provides financial 
assistance to address the planning activities, organizational 
resources, equipment, training and exercise needs of the high-
threat, high-density urban areas. That's right from the 
statute.
    As Representative for the Eighth Congressional District of 
Massachusetts, including Boston, Quincy, Brockton, and 21 other 
towns, I can tell you that nearly $18 million that the Boston 
area received in Urban Area Security Initiative funding proved 
critical in the aftermath of the devastating Boston Marathon 
bombings in April of 2013. As reported by the Federal Emergency 
Management Agency in its July 2013 testimony before the U.S. 
Senate on Lessons Learned from the Marathon Bombing, UASI 
funding helped to secure onsite security and protection, bomb 
robots, x-ray equipment, and ballistic helmets and vests that 
were used during the event.
    Program grant funds also helped to provide regional mutual 
and radio systems to increase information sharing between law 
enforcement, fire service, and emergency medical services. This 
funding supported the Boston Regional Intelligence Center's 
work on bombing-related operations and analysis, and provided 
camera systems that were used for post-incident investigation. 
Moreover, the Boston area directed Urban Area Security 
Initiative funds, to train SWAT teams, was critical in our 
ability to integrate bomb technicians into law enforcement, 
tactical operations, which was a crucial capability that was 
demonstrated following the marathon bombings, according to 
FEMA.
    Given the importance of Urban Area Security Initiative 
grants to the antiterrorism preparedness and response efforts 
in our cities, it is imperative that we conduct meaningful 
oversight of the program in order to ensure that no city, no 
city is arbitrarily or unjustifiably denied this assistance.
    It is my understanding that while the Orlando area study 
steadily indicated that the Orlando area was to receive nearly 
$45 million in UASI funding from 2004 to 2012, the area did not 
qualify for assistance in 2013, 2015, and 2016. For a 
metropolitan area that just last month experienced a tragic 
terrorist attack perpetrated by a shooter, Omar Mateen, who 
pledged allegiance to the Islamic State, and the presence of a 
major densely settled population, a lot of people, a lot of 
tourist activity in Orlando, the absence of an Urban Area 
Security Initiative assistance grant certainly merits re-
examination.
    I would note that a primary reason behind Orlando's loss of 
funding from year to year is that Congress has imposed some 
additional guidance and restrictions when it comes to 
determinations made by the Department of Homeland Security to 
distribute urban area grants. In three of the last five 
appropriations cycles, Congress added report language to the 
annual Department of Homeland Security appropriations bill that 
required the agency to place greater weight on certain risk and 
vulnerability criteria. Regrettably, these restrictions have 
resulted in a loss of funding for several cities, including 
Orlando. Other large and highly populated metropolitan areas 
include Kansas City, Sacramento, California, and San Antonio, 
Texas, as I mentioned before. These cities have also lost urban 
area initiative funding in the past. So hopefully we'll be 
able--through the re-examination of what happened in Orlando, 
we might be able to help those localities as well.
    Mr. Chairman, I look forward to discussing with the 
witnesses what steps we can take to further strengthen the 
Urban Area Security Initiative training program. And I thank 
you for the time. I yield back.
    Mr. Mica. Well, I thank you, Mr. Lynch, as the ranking 
member too of the National Security Subcommittee, and 
particularly I want to thank Congressman DeSantis, who chairs 
the Subcommittee on National Security, for their cooperative 
effort on this hearing and on this matter.
    Let me now recognize the chairman of the National Security 
Subcommittee, my colleague from Florida, Mr. DeSantis.
    Mr. DeSantis. Well, thank you, Mr. Chairman. And thank you 
for spearheading this hearing and thank you for raising the 
alarm about the need to protect Central Florida.
    Terrorism's on the march. Last month's attack in Orlando 
was the deadliest attack in the United States since September 
11, 2001, and, of course, last night terrorists mowed down more 
than 80 people in Nice, France, by running them over with a 
truck. Our Homeland Security efforts must adapt to this growing 
threat, a threat posed by what is a global jihad.
    As Chairman Mica mentioned, despite numerous appeals from 
Orlando officials and Chairman Mica himself, the Department of 
Homeland Security and Federal Emergency Management Agency 
denied Urban Area Security Initiative funding to Orlando for 
the last 2 years, and has only allocated $1 million in the last 
4 years. FEMA's reasoning was that the terrorists were unlikely 
to attack Orlando, but FEMA was wrong.
    The Department of Homeland Security and the Federal 
Emergency Management Agency must allocate preparedness funding 
in a way that recognizes recent terrorist trends, specifically 
FEMA must change its risk ranking methodology and needs to 
listen to the appeals of cities that are closest to the threat. 
They're on the ground, they're the first responders, they know 
what the risk is.
    People pour into Central Florida every year, and the 
greater Orlando area contains a number of so-called soft 
targets, such as amusement parks, which see large numbers of 
people congregate in one location. Suicidal terrorists seek out 
soft targets because it allows them to inflict a large amount 
of damage in a relatively short period of time. The Orlando 
area is at risk, and we need the government's methodology to 
reflect this fact.
    I agree with law enforcement personnel from Central 
Florida, including Sheriff Demings that the relative risk score 
for Orlando should also include Volusia and Brevard Counties. A 
cohesive strategy that includes these counties, both of whom 
sent assistance following the terrorist attack at the Pulse 
nightclub, will better protect communities in Central Florida, 
and UASI funding should recognize this.
    I look forward to hearing from Sheriff Demings and Chief 
Mina on their appeals to the Federal Government and how UASI 
funding can help Orlando. These are very busy and trying times 
for law enforcement, and I appreciate Sheriff Demings and Chief 
Mina testifying today.
    And I yield back the balance of my time.
    Mr. Mica. Thank you, Mr. Chairman. I appreciate, again, the 
National Security Subcommittee cooperating on this hearing.
    We will hold the record open for 5 legislative days for any 
members who would like to submit a written statement for this 
hearing.
    I'd now like to recognize and introduce our witnesses. I'm 
pleased to welcome from Central Florida, Sheriff Jerry Demings 
of Orange County, Florida. He heads our sheriff's office. He's 
also distinguished by just being named the President of the 
Florida Sherifs Association. Welcome, Sheriff Demings.
    Then we have Chief John Mina. John Mina probably is known 
across the country, both Sheriff Demings and Chief Mina, for 
what they've been through, just unbelievable nightmare in our 
community, and he leads that force with distinction, the City 
of Orlando police chief.
    We have Walter Purdy, who's President of the Terrorism 
Research Center. Welcome.
    And then we have Mr. Brian Kamoie, Assistant Administrator 
for Grant Programs at FEMA, the Federal Emergency Management 
Agency.
    Gentlemen, this is an investigations and oversight 
committee of Congress. We do require that all of our witnesses 
be sworn. If you'd please stand, I'll administer the oath. 
Raise your right hand.
    Do you solemnly swear or affirm that the testimony you're 
about to give to this joint subcommittee hearing of Congress is 
the whole truth and nothing but the truth?
    Let the record reflect that all of the witnesses answered 
in the affirmative. Thank you.
    Some of you are new to the congressional hearing process. 
We try to get you to submit anything you'd like for the record, 
like the statement documentation. We'd like to have you 
summarize in about 5 minutes your key points and then we can 
get to questions.
    So with that, we'll first turn to our Federal witness, Mr. 
Kamoie, with FEMA. And FEMA--again, the order of this, the 
investigational review--Mr. DeSantis, Mr. Lynch oversee the 
National Security Subcommittee, and they oversee DHS, but in 
this program, this urban area terrorism risk assessment, FEMA 
actually conducts the assessment. And, in fact, we'll put in 
the record reference to their response to me after Central 
Florida was denied back in January, and multiple times their 
response on behalf of DHS.
    Mr. Mica. So with that introduction, let me welcome Mr. 
Kamoie, the representative from FEMA, to testify.

                       WITNESS STATEMENTS

                  STATEMENT OF BRIAN E. CAMIOE

    Mr. Kamoie. Thank you very much, Chairman Mica, Chairman 
DeSantis, and members of the subcommittee. Good morning. I'm 
Brian Kamoie, Assistant Administrator for Grant Programs at 
FEMA. On behalf of Secretary Jeh Johnson and Administrator 
Craig Fugate, thank you for the opportunity to discuss DHS and 
FEMA's efforts to assist our State and local partners to 
prepare for and respond to terrorist attacks.
    The recent shootings in Dallas and Orlando and last night's 
tragedy in Nice, France, are reminders of just how important it 
is for our Nation to be ready to respond to all types of 
hazards, including manmade threats. Our thoughts and prayers 
are with the victims of these tragic events, as well as with 
the law enforcement officers who risk their lives every day to 
protect our communities, including Sheriff Demings, Chief Mina, 
and their officers.
    Today I will outline some of FEMA's programs to provide 
first responders with the resources they need to prevent these 
events and to plan, equip, and train for them should they 
occur. I will also discuss how we've supported Orlando through 
these programs before and after the shooting at the Pulse 
nightclub on June 12.
    Thanks to your support, since 2002, Congress, through the 
Department of Homeland Security, has awarded more than $47 
billion in preparedness funding to State and local governments 
and to a broad array of Homeland Security partners. In fiscal 
year 2016, more than $1 billion was awarded to our partners 
through the Homeland Security Grant Program, or HSGP, to build 
a more secure and resilient Nation. The HSGP includes three 
programs: the State Homeland Security Program, the Urban Area 
Security Initiative, or UASI, and the Operation Stonegarden 
Program.
    This year, the State Homeland Security Grant Program 
provides $402 million to support preparedness capabilities, 
with more than $11 million allocated to Florida. Florida also 
received more than $1.3 million through the Operation 
Stonegarden Program to enhance the security of the Nation's 
borders.
    Each year, DHS prioritizes UASI funds by conducting a risk 
assessment of the 100 most populace metropolitan statistical 
areas, as required by the Homeland Security Act. The annual 
assessment is based on three key factors for each urban area: 
relative threat, vulnerability, and consequences from acts of 
terrorism. Threat scores are derived from intelligence data 
compiled by the DHS Office of Intelligence and Analysis. This 
information includes data on any acts of terrorism, disrupted 
plots, credible threats, and known or suspected terrorist 
presence in each urban area.
    Vulnerability scores take into consideration any 
infrastructure that is a potentially high value target for 
terrorists, as well as any border crossings.
    Finally, consequence scores factor in an urban area's 
population, economic, national infrastructure, and national 
security indices. The results of the risk assessment, including 
the scores and relative ranking, inform the Secretary's 
decisions regarding eligible urban areas and funding 
allocations.
    Orlando received more than $44 and a half million in total 
UASI funding from fiscal years 2003 to 2012. In 2013, Congress 
for the first time directed DHS to limit the number of 
jurisdictions funded under the program to 25 in order to focus 
resources in the highest risk urban areas. Orlando had a 
relative risk rank of 30 that year and, as a result, did not 
receive funding.
    In 2014, Congress lifted the restriction on the total 
number of urban areas that DHS could fund under the program. 
That year, Secretary Johnson exercised his discretion and 
funded 39 areas, including Orlando, which was ranked 33rd, and 
received $1 million.
    In the annual DHS appropriations acts for fiscal years 2015 
and 2016, Congress again directed DHS to restrict funding to 
the urban areas that represent up to 85 percent of the assessed 
nationwide risk of terrorism. Secretary Johnson followed that 
direction, and designated 28 urban areas as eligible for UASI 
funding in 2015, and in 29 areas in 2016. Orlando fell outside 
the funded range in both of those years, ranking 32 in 2015 and 
34 in 2016.
    Though not currently eligible for dedicated UASI funding, 
Orlando can still receive funding support through the State 
Homeland Security Program. HSGP funds awarded to Florida and 
the city of Orlando in previous years demonstrated their value 
during the June 12th attack. For example, an armored vehicle 
and the bomb detection robot used during response efforts were 
both purchased through these programs. Following the attack, I 
also immediately approved two requests from the Florida 
Division of Emergency Management to reallocate up to $253 
thousand in unspent HSGP funds for law enforcement overtime 
expenses.
    In addition to DHS funding, the Department of Justice has 
made $1 million available to help cover response costs. Also, 
thanks to congressional action, DHS now has new funding 
mechanisms to support jurisdictions in their counterterrorism 
efforts. For this fiscal year, Congress appropriated $49 
million for the complex, Coordinated Terrorist Attack and 
Countering Violent Extremism Grant programs.
    It is important to note that FEMA also has a comprehensive 
emergency management training curriculum for first responders 
that includes counterterrorism courses. In coordination with 
the National Counterterrorism Center and the FBI, we developed 
the Joint Counterterrorism Awareness Workshop series. 
Participants work through an attack scenario to identify 
planning gaps and mitigation strategies. In 2014, Orlando 
hosted this workshop, with nearly 300 participants. And since 
2011, FEMA has also trained more than 700,000 personnel, 
including many from Orlando, to respond to active shooter 
situations.
    FEMA's honored to support Sheriff Demings, Chief Mina, and 
the Nation's first responders through these programs.
    I am grateful for the opportunity to appear before you 
today and I'm happy to respond to any questions the 
subcommittee may have. Thank you.
    [Prepared statement of Mr. Kamioe follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Mica. Thank you. And we will get to questions after 
we've heard from the other witnesses.
    Let me now recognize and welcome again Sheriff Demings, the 
Orange County sheriff. You're recognized.


               STATEMENT OF SHERIFF JERRY DEMINGS

    Sheriff Demings. Good morning, Chairman Mica and Chairman 
DeSantis.
    Mr. Mica. I'm not sure if your mic's on.
    Sheriff Demings. Good morning, Chairman Mica and Chairman 
DeSantis and members of the committee. It is indeed an honor 
and a privilege for me to provide testimony today.
    Let me begin by saying that I wish we didn't have to 
provide testimony, because there is no risk of a terror attack 
in Orlando, but sadly we know that that is no longer the case.
    I will be addressing the valuable projects funded in 
previous years by the Urban Area Security Initiative, or UASI 
grant program, our DHS and FEMA efforts to reassess the 
Orlando, Kissimmee, Sanford, Florida, MSA, and the need to 
strengthen and secure the Central Florida region from another 
terror attack like the Pulse nightclub incident.
    The Central Florida region has been fortunate to receive 
approximately $45.5 million in UASI funding since 2004. The 
Orange County Sheriff's Office is the agency which has managed 
those funds. The funding received prior to 2013 was critical to 
our region's ability to prevent, protect, respond to, and 
recover from not only terrorism, but a broad range of other 
threats and hazards.
    We are only as good at preventing a terror attack as the 
quality of information that we receive about that attack. One 
of the assets that we have in our region is the Central Florida 
Intelligence Exchange Fusion Center. The fusion center is a 
center that operates in Central Florida in Orlando. It is 
located just outside of the airport. It serves as a central 
repository of databases that are currently being used by the 
Florida Department of Law Enforcement and other Federal, State, 
and local law enforcement agencies.
    In addition to its counterterrorism focus, CFIX serves as 
an all hazards fusion center, assisting agencies in the 
mitigation and assistance needed to recover from hazards such 
as hurricanes and other natural disasters. CFIX assists with 
investigations of crimes that possibly contain a nexus to 
terrorist activity or other Homeland Security issues.
    Due to a lack of funding, some critical needs of CFIX have 
been lost. We have reduced the number of analysts, which could 
have worked to provide intelligence information that could 
prevent a terror attack.
    Examples of CFIX success stories include an incident in 
which CFIX assisted the U.S. Marshals in locating Federal 
fugitives. In another instance, CFIX assisted the United States 
Secret Service and the United States Coast Guard in locating a 
disgruntled citizen, who made concerning statements about the 
President prior to the launch of a Space Shuttle Endeavor 
mission, and numerous other instances in which they provided 
information with a nexus to national security.
    Through the National Infrastructure Protection Program, we 
received UASI funding for a video camera surveillance project 
in the tourist quarter, downtown Orlando, and in areas near the 
University of Central Florida. Chief Mina will talk more about 
that.
    Due to a loss of funding, we have not been able to expand 
the camera project into areas around our top tourist 
destinations.
    On June 12th, we experienced the benefits of more than a 
dozen or so UASI-funded training exercises of the past years. I 
believe the agencies responding to the Pulse incident 
flawlessly initiated an active shooter response because of 
training paid for through historical UASI funding. You have a 
list of the training exercises in your material.
    We train to respond as a region to a terror attack or other 
disaster. In fact, on June 12, approximately 150 of my deputies 
responded, with the Orlando Police Department, to the Pulse 
incident.
    Because of the infrastructure connections in our region, it 
is natural to have a regional capability and vulnerability 
assessment. Presently, FEMA uses the Office of Management and 
Budget's geographical boundaries defined in the Federal 
Register when calculating the risk score. We believe that the 
boundaries should be expanded to include the Brevard County 
area to the east and Volusia County Metropolitan Statistical 
Area to the north.
    In September of 2015, we began the process of lobbying the 
Federal Government to combine the metropolitan Orlando MSA with 
Brevard and Volusia. This was broadly supported by our Members 
of Congress from Central Florida as well as other State and 
local elected officials, and numerous letters were written to 
the FEMA assistant administrator of grant programs, the OMB 
statistician, and the OMB Office of Information and Regulatory 
Affairs. You have a list and copies of the letters in your 
material.
    I really don't have time this morning to get into the 
details of the methodology used in assigning risk, but we 
suggest that DHS include domestic and international visitors in 
the equation, and not just permanent resident population in the 
scoring. One credible attack in Central Florida to a theme park 
would be disastrous for our economy.
    With the recent attacks in Orlando, the incidents in Dallas 
and San Bernardino, there is a need in this country to have an 
overall perhaps increase in UASI funding, or at the very least, 
a redistribution of UASI funding across the Nation. That could 
increase the top MSAs with the most risk from the current 85 
receiving funding to perhaps 90 percent of the MSAs on the high 
risk list of the top 100.
    Congressman Mica has been a staunch supporter of many of 
these efforts, and we appreciate the fact that he invited us to 
participate today.
    In 2016, the Orlando MSA was 34th on the list, when only 29 
metropolitan statistical areas were funded.
    In closing, thank you for allowing me to speak. And I ask 
the committee to analyze the current MSA methodology formula 
and the data used in the formula to reflect current threats and 
vulnerabilities in Central Florida. We have now been probed, 
which makes us more of a target. Thank you very much.
    [Prepared statement of Mr. Demings follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Mica. Thank you, Sheriff Demings.
    Let me recognize Orlando Chief Mina now. Welcome, and 
you're recognized.


                  STATEMENT OF CHIEF JOHN MINA

    Chief Mina. Good morning, Chairman Mica, Chairman DeSantis, 
members of the committee. Thank you for inviting me to testify 
and allowing me to provide an overview of the immense security 
challenges we face on a daily basis in Central Florida and our 
use of the Urban Area Security Initiative funding.
    On behalf of the City of Orlando, I want to offer our 
thoughts and prayers to the victims, and families and friends 
of those victims in Nice, France, as well.
    As the committee is well aware, on June 12, Orlando fell 
victim to the second largest terrorist attack in history on 
U.S. soil. A self-radicalized extremist entered the Pulse 
nightclub at 2:02 and began shooting at the more than 300 
patrons that were inside the club. Fortunately, an Orlando 
police officer working an extra duty assignment at the 
nightclub immediately engaged the suspect, and within minutes, 
more arriving officers broke a large window to enter the club. 
Within minutes, more arriving officers entered, and the suspect 
retreated into a bathroom, where he was isolated and holding 
hostage. The suspect reemerged into a hallway, where officers 
exchanged gunfire with him, forcing him to retreat into the 
bathroom. Immediately afterwards, the suspect was contained, 
and officers on the dance floor began to evacuate the victims 
out of the club.
    That night, we were faced with many challenges, as the 
suspect claimed to have explosives that were strategically 
placed throughout the nightclub, including suicide vests that 
he was going to place on the victims. Although faced with 
almost certain death if the suspect detonated any explosives, 
officers remained in the nightclub and, instead, pulled many of 
the critically injured victims out to safety, transporting them 
to the hospital in the back of police vehicles.
    For the next 3 hours, the suspect held hostages and talked 
on the phone with crisis negotiators, where he pledged 
allegiance to the Islamic State. After negotiations broke down, 
we were forced to breach the concrete wall using explosives and 
a BearCat armored vehicle to save the remaining hostages and 
victims and make contact with the suspect.
    As rescue efforts were underway, the suspect emerged from 
one of the holes created by our armored vehicle and engaged our 
SWAT officers in gunfire. The suspect's rampage was ended at 
that time. Forty-nine innocent victim tragically lost their 
lives.
    The Orlando Police Department our regional partners have 
prepared for these types of incidents since the Columbine 
massacre. And although I believe we demonstrated great courage 
and resolve to mitigate this horrible tragedy, but we can 
always learn from our actions and work to make them even 
better.
    I would like to share with you some of the unique 
characteristics that make the Central Florida region an ideal 
target for terrorism. We have a combined resident population of 
3.7 million people, and in 2015 Orlando, had an increase in 
tourist population from 62 million to 66.1 million in one year, 
making it the number one tourist destination. Orlando is ranked 
number four in the top U.S. destinations for foreign travelers. 
Six of the top 50 attractions in the world are in the Orlando-
Kissimmee area, in our UASI region. And although our resident 
population is 3.7 million, that number grows exponentially 
every day as millions of visitors call Orlando home while they 
live in our hundreds of area hotels and visit all of our 
region's venues.
    The Central Florida region seeks funding under the UASI 
grant program on an annual basis. And the purpose of UASI is to 
enhance our capabilities to prevent, protect, and respond to, 
and recover from not only terrorism, but a broad range of other 
threats and hazards affecting our entire region. The intent of 
this funding allows us to establish measurable ratings 
priorities and balance threats and consequences.
    Since 2002, when the Homeland Security Act was signed into 
law by President George W. Bush, the Orlando-Kissimmee-Sanford 
MSA received UASI grant funds annually from 2004 until 2012. 
However, the funding stream drastically changed in the past 4 
years. Starting in 2013 and continuing up to 2016, the Orlando-
Kissimmee-Sanford area has not ranked high enough in relative 
risk score to receive UASI funding even though we are ranked 
number one on the MSA for domestic visitor population in the 
Consequence section of the formula.
    From 2012 to 2016, our area has appealed the relative risk 
score and asked the Department of Homeland Security and FEMA to 
reassess the data. In May, members from our region traveled 
here to Washington, D.C., and met with representatives from the 
Department of Homeland Security and FEMA regarding the 
concerning threats to our region and the lack of UASI funding 
our region has received.
    These critically needed funds are used to strengthen our 
region's preparedness and competency in prevention, protection, 
response, and recovery.
    The UASI funding we have received in the past has assisted 
in accomplishing many goals. Hazmat training has been provided 
for individuals to participate in various recognized and 
approved technician and specialist level courses specific to 
identified required competencies. There have been trainings, 
including intelligence, bomb training, incident command 
training, fusion center training, radiological and nuclear 
detection training, and interoperable and communication 
training. Through these training exercises, we have 
strengthened our core capabilities within our UASI region. The 
majority of the UASI funds that we receive are allocated--are 
used to purchase and sustain protective equipment within the 
region. This includes the continuation and build-out of a 
camera and video surveillance system which supports our 
protection plan.
    When complete, this program will give us access to 
approximately 500 cameras which can be viewed remotely from 
fixed and mobile command centers. This ability will aid us in 
the protection, prevention, as well as response and recovery 
from an act of terrorism or natural disaster that would 
directly affect the area's critical infrastructure and identify 
venues that are key resources to sustaining the economic 
viability of our region.
    We have also utilized UASI programs to fund regional 
exercises, subsequent after action reports, and improvement 
plans. The last full-scale exercise in 2013 funded by UASI was 
a medical surge exercise at the Orlando International Airport, 
which involved multiple hospitals in the surrounding six 
counties and the city of Orlando. These vital tools have 
assisted us in measuring and gauging the progress of regional 
collaboration and communications capabilities within the 
Orlando metro area.
    It is absolutely critical that we as a region monitor and 
keep up with emerging trends, improvements in technology, 
updates to equipment.
    Due to the lack of funding in the past 4 years, this has 
caused serious response and mitigation constraints as a whole. 
From a law enforcement perspective, this affects the much 
needed training and equipment for our bomb teams in Central 
Florida to have the opportunity to train and purchase equipment 
needed for adequate bomb response. This was a critical 
component to the Pulse nightclub incident.
    In 2015, we identified through gap analysis a need to 
purchase a tactical robot for our SWAT teams and refurbished 
one of the aging regional bomb robots. Due to lack of funding, 
these programs we not funded.
    Finally, for the last few years, we have sought funding 
through the UASI grant program to conduct Swift Assisted Victim 
Extraction, or SAVE, training for the region. This critical 
training teaches law enforcement and fire service the tactics 
and skills necessary to save lives. In a typical response to an 
active shooter casualty incident, fire personnel will stage a 
safe distance from the scene until law enforcement declares the 
scene is clear, even though law enforcement is confident they 
have captured, contained, or killed the suspects. This course 
is designed to teach law enforcement officers and the fire 
department the tactics necessary to enter a semi-secure area, 
which will reduce time to render aid to victims and save their 
lives. Without continued training, these perishable skills 
would surely deteriorate.
    In closing, I would like to bring to the attention of the 
committee, the paradigms of traditional terror attacks are 
changing. In the past, our identified critical infrastructures 
were and obviously still are targets of terror attacks.
    Based on the horrific event we experienced at the Orlando 
Pulse nightclub and that of the brave Dallas police officers 
who gave their lives while protecting innocent civilians last 
week, I urge the committee to consider that these attacks are 
becoming more frequent at venues identified as soft targets. I 
ask the committee review the relative risk formula to better 
address the risk profile unique to the Central Florida region, 
also known as the Orlando-Kissimmee-Sanford MSA.
    I would personally like to thank Congressman Mica for his 
continued and unwavering support, not only from the Pulse 
assistance, but your assistance with the UASI grant funding.
    I would also like to thank the committee for allowing me 
the opportunity to give my statement today, and I look forward 
to any questions. Thank you.
    [Prepared statement of Chief Mina follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Mica. Thank you, Chief Mina.
    And we'll hear from our last witness, Mr. Walter Purdy, 
President of the Terrorism Research Center. Welcome, and you're 
recognized, sir.


                   STATEMENT OF WALTER PURDY

    Mr. Purdy. Well thank you, Chairman Mica, Chairman 
DeSantis, Ranking Member Lynch and other distinguished members 
of this committee. Thank you for inviting me today to testify 
about this very important issue.
    The terrorism threat in America is one that is constantly 
evolving. In the wake of the terrorist attacks last night in 
Nice, previous attacks in Paris, Brussels, Boston, Charleston, 
Chattanooga, Garland, San Bernardino, and Orlando, the last 
thing we should be doing is reducing the levels of funding to 
certain cities that need these funds to protect America.
    It is truly unthinkable at this time that President Obama's 
2017 budget reduces the level of funding for Homeland Security 
initiatives through the Urban Area Security Initiative, known 
as UASI, as well as in other funding mechanisms to protect the 
homeland. The threat to America from terrorists has not a gone 
away and is constantly evolving.
    The director of the FBI, James Comey, has warned that the 
FBI is investigating ISIS suspects in over 50 States, with more 
than 900 active investigations. Just this last week on the 
front page of the Washington Post, Adam Goldman wrote an 
article talking about 92 ISIS individuals here in the United 
States.
    Even the funding for State and local antiterrorism 
training, SLAT, conducted through the Department of Justice, 
has been reduced and cut back. Talking to an individual with 
that bureau yesterday, they said, I'm not sure what we're going 
to do to help local law enforcement that needs this critical 
training today. Yet the terrorism threat to America seems to 
continue to grow.
    Last week, Secretary of Homeland Security Johnson testified 
at a Senate hearing on funding for Homeland Security. He said 
he was constrained by the budget agreement, wasn't happy, but 
had to make hard choices. Yes, we all know budgets restrain 
people, but we have to think about how we're spending those 
resources and giving those communities, and cities, counties, 
and regions that need them the tools and resources to do the 
job to protect American citizens, and as you just heard, all 
the tourists that go and visit the Orlando area.
    If the terrorism threat to America was reduced to going 
away, I would be the first one to support a reduction in 
funding both for UASI and the Department of Homeland Security, 
but we all know this threat is not going anywhere. It's 
actually increasing.
    Today, we see homeland radicalized terrorists conducting 
attacks, as we saw in San Bernardino. We see individuals 1.2 
miles from my residence in Fairfax, Virginia, getting locked up 
last Friday. We see out in Sterling, Virginia, individuals, 
inspired by ISIS, going and purchasing weapons, seeking to 
attack targets in this particular region.
    We need to be funding local law enforcement. They are the 
first responders. Both the police and sheriff's department, and 
the officers in Orlando bravely dealt with that particular 
critical incident. Yet we're asking the law enforcement 
community in places, and first responders, firefighters and 
others, to deal with this ever-growing, complex challenge as 
funding levels in places get cut. We can't expect law 
enforcement as a community is going to be prepared to deal with 
these changing situations over time when we're cutting funds.
    UASI funds, Homeland Security programs, Congress has heard 
from mayors, chiefs of police, sheriffs across from America, 
that have lobbied for a departure and a reexamination of how 
the funding takes place. The threat is real. I would ask you to 
kind of change the direction and approach in which these funds 
and mechanisms provide critical resources and assistance to 
those first responders in America. Training is critical. It is 
a critical step to getting individuals so they can respond 
effectively to this growing threat.
    I thank you for the time today and look forward to 
answering any questions. Thank you so much.
    [Prepared statement of Mr. Purdy follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Mica. Thank you, Mr. Purdy.
    And I want to thank all of our witnesses today. And I'll go 
directly to questions.
    First of all, we have a program in place, and it's been in 
place since 2003, many years. We provide about a billion 
dollars a year in funding. Well, what we've got to do is make 
sure we don't leave any American city or community behind. My 
dad used to say, and I told this to Sheriff Demings and Chief 
Mina this morning, my dad used to say, it's not how much you 
spend, it's how you spend it, and then getting money out.
    In looking at--and unfortunately, we were involved in this 
even before the horrible Orlando terrorist massacre. We were 
looking at trying to see what was wrong with the formula, why 
we were denied, and we found several things. In the response 
that--I don't know if you were the--let's see who signed this, 
but it came back from FEMA to me, again, before--this is back 
February 19th. Yeah. This is from you, Brian, Mr. Kamoie. You 
said, DHS Office of Intelligence and Analysis uses a holistic 
approach to analyze threat information and juxtaposed its 
review of intelligence community.
    So, again, we've got different agencies doing different 
things. You're relying on information you're getting from them. 
I'm told some of that information is outdated. For example, in 
Orlando, they're using assessment data that's from 2011 on the 
tourism visitation. Hasn't been updated since then. Did you 
know that?
    Mr. Kamoie. Sir, that's not accurate. We've got more recent 
data than that. And we'd be glad to provide----
    Mr. Mica. Well, we were told, again, that that was what was 
used. Maybe now there has been an update. So we're told, again, 
that that information, that they have, is not up-to-date. You 
don't do that. They do that. You analyze their data, right, 
their intelligence and what they supply you?
    Mr. Kamoie. So the reason we use the term ``holistic'' is 
it's a partnership between us and the Office of Intelligence 
and Analysis for the threat piece of the formula.
    Mr. Mica. Right.
    Mr. Kamoie. Threat vulnerability and consequence. The 
threat piece looks at acts of terrorism, credible threats, 
reporting terrorism presence----
    Mr. Mica. You gave us threat vulnerability, consequences, 
all of those things----
    Mr. Kamoie. Yes, sir.
    Mr. Mica. --but, again, the information we have is some of 
that data on which you based, at least Orlando, was outdated. 
That's one.
    Then, two, somewhere, and Mr. Purdy referred to it, we are 
missing the mark. We missed the mark dramatically in Orlando. 
And, again, Mr. Purdy cited it. We've had San Bernardino, we've 
had Boston, Mr. Lynch's community, my community, and they're 
hitting soft targets. We went back and tried, as you heard 
Sheriff Demings, because we found out that some of the basis on 
which you analyzed us is we didn't have a port, Orlando doesn't 
have a port. So money went to Tampa and then money went to 
Miami. They have ports.
    And we tried to change the area Mr. DeSantis represents, 
over to Volusia County, we tried to get that in, and Brevard 
County, and we were denied that.
    So my point here is somehow the threat assessment isn't 
dealing with the reality of what they're doing to us. They're 
coming at us in soft targets. And then we said, we are a soft 
target. We've got great security at Disney, at Sea World, at 
Universal, at these big attractions, but look at the death toll 
list from Orlando. These people came from all over. Young 
ladies who were Googling a good place to go, which was the 
Pulse nightclub in Orlando. They were from Philadelphia. I 
mean, you look at the roster of the dead and where they came, 
and they came to a soft target. This guy scoped, he scoped 
Disney and then came back and slaughtered people at that 
nightclub.
    We are missing the mark. Now, maybe we should give the 
Secretary back to more discretion. Maybe we should--again, 
leave no community behind. Maybe we should divide the billion 
dollars between everybody and get some to at least address the 
problem.
    But Orlando, Central Florida, the biggest terrorist attack 
in the history of the country since 9/11, got zero the last 2 
years. Don't you think something's wrong?
    Mr. Kamoie. Chairman Mica, I'm going to address a number of 
the things that you've raised. In terms of leaving no State or 
city behind, the billion dollars you are referencing goes 
through two programs: The State Homeland Security program, $402 
million this year. That provides funding for all 50 States.
    Mr. Mica. Yes.
    Mr. Kamoie. The District of Columbia and the U.S. 
Territories. So that is a baseline of Homeland Security funding 
for all jurisdictions.
    Mr. Mica. Again, and maybe you're not here to speak on 
behalf of a policy for the Secretary of DHS and beyond, but I'm 
telling you we aren't getting it right. We are not getting it 
right. And also, just for the record, this is provided by you, 
daily visitors, the data is based on 2011, 2012 and 2013 survey 
data. This is what you gave us. Okay? So don't say that I'm 
incorrect. That's what you gave me.
    Now, Sheriff Demings, he summed a lot of this up. We're 
only as good as the information that we have in intelligence. 
We have got to go back to getting better intelligence, 
connecting the dots, getting that information. Obviously, they 
missed the mark. We're only talking about this program. But 
they missed the mark with our particular terrorist, who was 
identified multiple times, put on a watch list, taken off a 
watch list. Sheriff Demings, you've got to have that 
information right to know who poses a risk, either coming into 
or in our community. Is that correct?
    Sheriff Demings. Congressman Mica, you are correct. And I 
will have to say that we have a wonderful collaborative effort 
between our Federal, State and local law enforcement 
authorities in Orlando, as I indicated, who operate out of the 
Central Florida Intelligence Exchange.
    There is classified and unclassified information that goes 
through that center that assists us in responding to 
counterterrorism efforts as well as our day-to-day crime 
prevention efforts.
    Mr. Mica. Well, the other thing too is, and, Mr. Purdy, you 
said--I think it was you--we've got to change the paradigm, the 
San Bernardinos, the Orlandos, the Chattanoogas, the Bostons. 
They aren't done with us. This isn't over. We've got a 
responsibility, and if we're going to spend even one penny, it 
has to go most effectively.
    And I'm calling today for--again, we have a billion dollars 
sitting there. That's another issue, a billion dollars sitting 
there, some of this since 2011. We've got to get that money 
out. It shouldn't be sitting here. So if they don't use it, we 
should find some way that they lose it and it goes to where 
people can use it.
    But you saw the chart. I saw it this morning the first 
time. It's stunning. Almost a third of the money sitting there. 
Something's wrong and we've got to change it. But my time is 
over and extended.
    Let me recognize the gentleman and Ranking Member Mr. 
Lynch.
    Mr. Lynch. Thank you, Mr. Chairman.
    Mr. Kamoie, all right, so, as the chart showed, there's 
about a third of the resources that were authorized but not 
expended. I'm rather surprised to see that the people in Boston 
left half a million dollars unspent, we're not known for that.
    But could you explain to me why the allocation--there's two 
problems here: One might be the amount of resources that we're 
allocating; the other is the effective use, how we deploy and 
whether we deploy those resources to protect the people. That's 
my first question.
    So can you explain why there is that residual amount not 
spent?
    Mr. Kamoie. I'd be glad to, Congressman Lynch. And I 
believe the word that Chairman Mica used was that the money is 
idle. There are three timelines that you need to keep in mind 
with respect to this money. The first is, it is 1-year funding 
when it is provided to us from the Congress, meaning we need to 
make the awards in the same fiscal year in which they are 
appropriated. So we announce the awards, we move----
    Mr. Lynch. I don't want you to burn all my time on this, 
because I have some more questions. But, please, if that's the 
case--so that money is going to be spent, is that what you're 
going to tell me?
    Mr. Kamoie. The money is all booked against projects that 
they are spending against. You can think of it as your own 
budget. When you have a budget at the beginning of the month 
and you put on your ledger that you're going to pay your 
mortgage on the 25th, it doesn't mean the money is idle. It 
means it doesn't get paid until later in the----
    Mr. Lynch. So it's targeted; it's going to be spent later.
    Mr. Kamoie. Yes.
    Mr. Lynch. You can just say that in a short amount of time. 
Thank you, I appreciate that. So we're going to spend that 
money later, it just hasn't been spent yet. Okay.
    What about the factors that we're using here? Orlando, you 
know, they've got Disney World and all that going on. I'm sure 
they have huge fluctuations of population.
    Manhattan, same thing. I worked there. You know, Manhattan 
has very little population maybe on a Saturday morning, but 
then Monday morning all these millions of people come on in and 
there's a huge problem there.
    So in the factor, in the formula, do we consider the 
inflow? Like, you know, some of the areas in Orlando, 
obviously, there's a certain season when they get swamped with 
people.
    Mr. Kamoie. We do. Population counted as nighttime census, 
meaning people who both live there, who are visitors overnight, 
and then people who commute during the day and leave.
    Mr. Lynch. Okay.
    Mr. Kamoie. We count all those folks. And we also count the 
infrastructure that you're well familiar with in Orlando.
    Mr. Lynch. Yeah. It was quite surprising to me that the 
Pulse Nightclub in Orlando was attacked. Just, I mean, come on. 
You know, who could predict that? You could say similar 
thoughts, as someone from Boston, the marathon, I've run that a 
couple of times, that is not somewhere where you would even 
think, but now we have to, right?
    So if we're going to start protecting soft targets, the 
list is endless. The opportunities are endless. And you just 
almost get into this sort of whack-a-mole type situation where 
we try to guess where they might strike next. And I don't think 
there's anything short of full-spectrum surveillance of 
American society that could even approach addressing that 
problem, as far as something programmatic, in terms of giving 
people money out, you know, across these jurisdictions to sort 
of make sure nothing happens in their district. I don't know. 
That's a tall order for law enforcement and for our 
intelligence services.
    And I'm just wondering is there a better model out there? I 
know that the British have put a lot of money into 
surveillance. They've got cameras everywhere, especially their 
transportation systems. We haven't done enough of that yet.
    But is there another model out there, Mr. Kamoie and Mr. 
Purdy, that you think offers some hope?
    Mr. Kamoie. Congressman, I'll defer to the sheriff and the 
police chief on what the best policing tactics are to address 
the threat. On the financing, I can just tell you on the 
funding levels, you pointed out something very important in 
your opening statement, which is the direction that Congress 
gives to the Secretary about how many jurisdictions to fund, 
how far to spread the funding. The Secretary takes that 
guidance very seriously.
    So Congress has a choice about the breadth of jurisdictions 
you wish the Department to cover with the funding. So I would 
encourage you to have discussions among the committee and with 
the appropriators about the appropriate intent that you'd like 
to convey to the Secretary.
    Mr. Lynch. I can just say in closing, from our own 
experience in Boston, the fact that we had a very robust public 
safety infrastructure there, we've got great--a suburb police 
department, fire department, emergency medical services, 
hospitals. They were all onsite. They were all onsite. We have 
a great Joint Terrorism Task Force, where FBI, DHS, State 
Police, local police. So I think that a lot of people were 
saved that day, because we had medical tents already set up, we 
had that infrastructure in place. We had great leadership. And 
that continues to this day.
    So that that's sort of the first line of defense, and then 
the stuff that we're doing here with these special programs. So 
we've got to support the sheriff and the chief in their basic 
jobs, and then plus that up, plus that up with enhanced 
resources at this level. But thank you for your courtesy.
    Mr. Chairman, I yield back the time I don't have.
    Mr. DeSantis. [Presiding.] I thank my friend from 
Massachusetts. I now recognize myself for five minutes.
    Sheriff Demings, the amount of people that are coming into 
central Florida every year, what's the ballpark estimate of how 
many people come to visit?
    Sheriff Demings. In 2015, it was 6 to 6.1 million people 
came to visit. And in my county, our permanent resident 
population is 1.3 million. So effectively, on any given day, 
our county population doubles, and that's the service 
population that we have to deal with.
    Mr. DeSantis. And those figures would put Orlando in 
probably the top five in the country for visitors. Is that your 
understanding?
    Sheriff Demings. It would certainly move us up from number 
34, where we currently reside on the list.
    Mr. DeSantis. So you combine a huge influx of people with a 
lot of different soft targets. I mean, people think, oh, you 
know, they'll go to Disneyland or Disney World. Yeah, that's 
one, but there are amusement parks everywhere. There are, 
really, a high number of soft targets and probably more soft 
targets in Orlando than just about any other city certainly in 
the Southeast, I would say. Do you agree with that?
    Sheriff Demings. Certainly. Because we have now had an 
attack in Orlando, I believe that we will remain at risk. And 
that's the unfortunate thing about it. And we simply want to be 
prepared and prevent something from occurring. And then if it 
should happen, we want to be able to respond quickly.
    Mr. DeSantis. But a huge number of people and then the 
proliferation of soft targets, that's not really reflected in 
how FEMA analyzes this presently, correct?
    Sheriff Demings. As best as I can tell, that is perhaps 
some of the factors that they look at. But we are seeing a 
paradigm shift in the way terror suspects are identifying their 
targets, as Chief Mina indicated, and they are looking more at 
the soft targets.
    Mr. DeSantis. So, Chief, how would the funding--say this 
changes and you guys are getting more funding, what would be 
your first order of business to use that, in terms of terrorist 
preparedness?
    Chief Mina. Well first of all, going back to the formula 
and the amount of visitors, and that may be factored in, but we 
believe, since we are such a target, that the number of 
visitors in our venues should hold greater weight.
    But secondly, that funding has provided us with much needed 
training for our response and much needed equipment. But 
training skills perish and equipment, you know, is needed to be 
replaced. So, you know, just looking at the Pulse incident, 
there's so much more equipment that I would have liked. There's 
thermal imaging, to see where the suspect was behind those 
walls.
    Sir, I met with officials from France to discuss the Paris 
attacks, and they had ballistic protection for their face 
shields for their SWAT officers, which we do not have. So 
there's all kinds of equipment out there, equipment----
    Mr. DeSantis. Do you guys have the--the Dallas police used 
the robot to deliver a bomb to kill the guy who was shooting 
the cops. Do you guys have access to that type of technology?
    Chief Mina. We do have a similar robot. But, again, we 
haven't had the training to deploy such a device, as you know, 
the first time used ever to kill a suspect in that type of 
situation. But that's, again, training that could be provided 
with that funding.
    Mr. DeSantis. Sheriff Demings, you talked about in your 
testimony having Brevard and Volusia be included in that. Why 
is that important?
    Sheriff Demings. It's important because it is really--it 
speaks to more of how our metropolitan area functions, the 
infrastructure, the roadways, how we advertise our tourism 
destinations, how our commuters travel to and from work.
    We truly are one big metropolitan area. Whenever there's an 
incident, let's say in Volusia involving the raceway, we 
support their efforts. When there is something that's going on 
at NASA, the Kennedy Space Center, we support the efforts there 
as well.
    And so even with the Pulse incident, we had a regional 
response. There were police agencies and sheriff's officers 
from throughout the region in question who responded to assist 
us in our recovery efforts.
    Mr. DeSantis. I agree. And I join Chairman Mica in 
supporting your efforts to get that change.
    This is just a little bit off this particular subject, but 
there's obviously been a lot of issues going on in our society. 
The Dallas shootings. So how is the morale with the Orange 
County Sheriff's Department for officers? Are they feeling the 
support that they need from the community and the public?
    Sheriff Demings. I've got to tell you for the last 2 years 
law enforcement across the Nation has been criticized mightily, 
sometimes justly so, sometimes unjustly so.
    But what we saw happen immediately after the Pulse incident 
was this tremendous outpouring of support and love, if you 
will, that was shown to all first responders, not just the law 
enforcement officers. And there were various random acts of 
kindness to our personnel that has continued right through 
today. And I'm sure that Chief Mina could echo my comments and 
sentiments in this regard.
    Mr. DeSantis. Is that your experience?
    Chief Mina. Absolutely. It's been tough times for law 
enforcement these past few years, but the morale is good 
because of the great support from our community. And we're 
lucky in Orlando and Orange County. We have a rich history of 
community policing and community engagement with our community. 
But there has been just a huge outpouring of support from the 
community.
    And certainly, any time a police officer is targeted 
because of wearing that uniform, it is very concerning to them. 
So they are very on guard and aware and concerned about their 
own safety, but the morale is good and they feel the support 
from our community.
    Mr. DeSantis. Great. Well, thank you, and I am done.
    And I guess we'll now recognize the gentleman from Alabama, 
Mr. Palmer, for five minutes.
    Mr. Palmer. Thank you, Mr. Chairman.
    And I want thank the witnesses for being here and echo the 
sentiment that we've already heard here about our support for 
law enforcement and first responders at every level. We really 
do appreciate you guys and want to help any way we can.
    Mr. Kamoie, does FEMA have the capabilities to do 
evaluations of regional preparedness?
    Mr. Kamoie. We do. We've got extensive reporting by our 
grant recipients against core capabilities for preparedness. So 
we've done a great many things to advance our ability to assess 
preparedness.
    Mr. Palmer. How long have you been doing these?
    Mr. Kamoie. The President issued Presidential Policy 
Directive 8 on national preparedness in 2011, and we have been 
working since then on identifying the core capabilities and 
working with our State and local partners to align investments 
of these grant funds against those capabilities.
    Mr. Palmer. Prior to the Orlando attack, considering the 
high profile of that city and of that region, was there a 
preparedness evaluation report done for central Florida and 
specifically Orlando?
    Mr. Kamoie. As an Urban Area Security Initiative 
jurisdiction, Orlando has reported to us the funding----
    Mr. Palmer. No. I'm asking, this is FEMA's responsibility. 
There's a GAO report. You mentioned the President's initiative. 
I want to know was there a report done for central Florida and 
specifically for the city of Orlando?
    Mr. Kamoie. I'll have to follow up with you, Congressman.
    Mr. Palmer. Okay. When you follow up, I would like for you 
to respond to the committee as to whether or not a report was 
prepared, and if it was I'd like for you to provide that to the 
committee. Could you do that, please?
    Mr. Kamoie. I will.
    Mr. Palmer. Isn't it the responsibility of the UASI program 
to make sure that the program's goals are met?
    Mr. Kamoie. That the program----
    Mr. Palmer. Goals are met.
    Mr. Kamoie. Yes.
    Mr. Palmer. One of the goals is to make sure that these 
regions are prepared. And what I find stunning--and I was at 
the classified briefing in which Mr. Mica laid some documents 
on the stage for Secretary Johnson.
    It is stunning to me that more wasn't done to prepare 
Orlando for this, to view Orlando as a target. It's stunning to 
me that Orlando was turned down for the grant, and particularly 
considering the threats that we face, and it's been in an 
escalating nature. I mean, it's not like one happened 5 years 
ago and then something else happened. I mean, these things are 
escalating. It's almost as though the Federal Government, 
particularly this administration, is tone deaf or blind to it. 
And I just don't understand why there's a billion dollars that 
wasn't used. And I heard your answer a while ago that there's 
other things going on, but they are critical needs and Orlando 
should have been one of the top areas for this.
    What accountability and oversight is FEMA exercising to 
ensure that program funds are being used effectively?
    Mr. Kamoie. We monitor 100 percent of all open awards. And 
where we see indications that additional monitoring is needed, 
we do site visits. We work both on the programmatic monitoring 
and financial monitoring, to make sure the funding is spent for 
the purposes for which it is appropriated.
    Mr. Palmer. Well when you look at the fact that there's 
over half a billion--$662 million, half a billion dollars that 
was unused from 2011, and you couldn't come up with some----
    Mr. Kamoie. The award amount was $662 million. The award 
balance was----
    Mr. Palmer. I'm sorry, you're right. There's half a billion 
was--$1.1 billion that's left over, and it's accumulated over 
that time. Thank you for pointing that out.
    Mr. Kamoie. It's not idle or left over. The grantees for 
2015 have 3 years to spend the money. So they are in progress 
with that $585 million, and they'll spend against it until 
2018. In 2014, they had a 2-year period of performance. They 
have until August of 2016 to spend down that funding, and when 
they conduct or complete large projects, they then request 
reimbursement.
    Mr. Palmer. Are you saying that most of the funding is 
spent on the back end of that?
    Mr. Kamoie. I'm saying the timing for which they request 
reimbursement can accelerate toward the end of the period of 
performance. So it's a reimbursement grant. So they submit 
bills to us; we pay them. So that $585 million for 2015 is 
ongoing. The $445 million, the period of performance will close 
in August. Some projects will get legitimate extensions to 
their period of performance, because they're still in progress. 
That billion dollars is very actively being spent right now; 
it's not left over.
    Mr. Palmer. Well, what I was asking is, is it looks like a 
lot of this is spent on the back end, if you've got 2014 
funding and you still have $445 million left and it closes out 
in August.
    Mr. Kamoie. So whether it's spent on--I mean, we reimburse 
on the back end, yes. As we're closing the grants, 
jurisdictions submit a large number of bills to us.
    Mr. Palmer. I want to look into this a little bit more and 
make sure that I fully understand how this is done, but I want 
to get back to this.
    I understand the senior policy group oversees the 
allocation and implementation of UASI funding, determines 
priority actions for increasing the region's preparedness and 
response capabilities, as well as reducing vulnerability to 
terrorist attacks. The group is comprised of senior emergency 
management officials. They're from the District of Columbia, 
they're from Maryland and Virginia.
    Why isn't there more diversity in the context of regional 
representation on that, or is there? And I'm asking this in the 
context of I'm trying to learn something here about how they're 
coordinating.
    Mr. Kamoie. The senior policy group for the District of 
Columbia's Urban Area Security Initiative? That is not----
    Mr. Palmer. No, senior policy group. I understand they 
oversee the allocation and implementation of the UASI funding, 
and they determine the priority actions.
    Mr. Kamoie. Not nationally. So in every urban area, there's 
typically an urban area working group, whether a jurisdiction 
calls it a senior policy group or by some other name; but every 
urban area has a governance structure to determine the 
priorities among the jurisdictions. But I have no senior policy 
group from those jurisdictions that govern nationally what the 
program's priorities are.
    Mr. Palmer. Well, that came from the GAO report and it 
indicated it was for the whole country, the whole UASI.
    Mr. Kamoie. Congressman, we'll take a look at that. I'm not 
familiar with that senior policy group.
    Mr. Palmer. You're not familiar with the group?
    Mr. Kamoie. There is no senior policy group that sets the 
Urban Area Security Initiative priorities nationally. I think 
that is likely referring to a specific urban area jurisdiction.
    Mr. Palmer. Okay. Then who does determine?
    Mr. Kamoie. So I go back to the President's preparedness 
policy identified 32 core capabilities that are the priorities, 
how this administration has defined preparedness against which 
all of the grant investments should be invested. They are very 
broad. They range from prevention capability, such as 
information sharing and interdiction, search and detection, all 
the way through to response and recovery capabilities.
    So we have, as an administration, determined priorities for 
preparedness grant funding. We work with grantees to make sure 
the funds are spent against those priorities. We monitor how 
the funds are spent. Of course, the Department's inspector 
general audits grant recipients; and where we find that funds 
have not been used properly, we take enforcement action.
    Mr. Palmer. I'm trying to figure out, though, how you make 
a determination that would result in Orlando and central 
Florida not getting a grant. Is there a ranking process? Is 
there a committee or is it an individual--I tell you what, for 
sake of time, and I've gone over my time, could you give us a 
report on that that outlines how this is done?
    Mr. Kamoie. Absolutely, Congressman.
    Mr. Palmer. I'd appreciate that.
    Mr. Chairman, you've been very generous with time. I yield 
back.
    Mr. Mica. [Presiding.] Thank you. Appreciate your questions 
and participation.
    Let me yield now to the Ranking Member, Mr. Lynch. 
Additional questions?
    Mr. Lynch. Mr. Kamoie, we're getting hung up again on the 
allocations and the unspent amounts. What happens, you know, so 
we've already--we're joining in a letter to have the inspector 
general look at this and see how much money has been lingering 
and unspent for how much time.
    Obviously, if something has been sitting there for 5 years 
and hasn't been spent, it's probably not going to get spent. 
And if we could somehow reallocate to our Tier II risk 
jurisdictions, that might help some of the problems that we've 
identified here.
    Mr. Kamoie. It's why I mentioned the money to us is 1-year 
money. I can't reallocate it if a grant recipient doesn't spend 
it. I don't have the authority.
    Mr. Lynch. Well, we need to do that. We need to--we have 
provisions in our general transportation budget that if you 
don't use money, we take it back after a certain period of 
time. We could have a similar provision in this, in this grant 
program, that either puts the money back in the pot for re-
issuance or automatically goes to these underserved 
jurisdictions that don't have the robust security apparatus 
that some others do.
    How much control does the State have? My Governor is pretty 
good on this stuff, but in terms of allocation within areas, 
how much involvement does the State have in where to allocate 
the resources? Is any of that tied in with the government?
    Mr. Kamoie. In the State Homeland Security program, the 
Governor designates a State administrative agency and they have 
control over the State Homeland Security program funds. The 
Urban Area Security Initiative funds pass through a State, 
which, by statute, is allowed to keep up to 20 percent of the 
funding, and then passes the 80 percent down to the urban 
areas, who, again----
    Mr. Lynch. Are they earmarked for those urban areas?
    Mr. Kamoie. They are directed to the urban areas, yes.
    Mr. Lynch. Okay.
    Mr. Kamoie. When an award is made to Orlando, it passes 
through the State to Orlando.
    Mr. Lynch. And they can take 20 percent out?
    Mr. Kamoie. They can take up to 20 percent.
    Mr. Lynch. For what, administrative costs or----
    Mr. Kamoie. For activities and projects that benefit the 
urban area or benefit statewide.
    Mr. Lynch. I see. Okay. I have a few, some seconds left 
here. Any other points you want to make?
    Mr. Kamoie. I'll just go back to something you mentioned in 
your opening statement, Congressman, which is the guidance on 
the number of urban areas that the Secretary provides the 
funding to is critical, because Congress has a choice to make 
as to where the line is drawn in the top 100 Metropolitan 
Statistical Areas. The Congress can draw the line; they can 
provide discretion to the Secretary to draw the line.
    Mr. Lynch. Okay. Thank you.
    I yield back. Thank you, Mr. Chairman.
    Mr. Mica. Again, I thank you, Mr. Lynch and Mr. DeSantis, 
for participating, and other members today as we wind this up.
    Let me go back and ask Sheriff Demings if there's any 
points he would like to make, having heard what has transpired 
and the information we have now about the program. And we'll go 
to Chief Mina and then Mr. Purdy.
    Sheriff Demings. The last comment by Mr. Kamoie I believe 
certainly has merit, and which some discretion should be given 
to the Secretary to determine where the line is drawn, because 
if the Secretary has discretion, perhaps the Secretary can make 
that--use that discretion based on current events and what is 
happening today and not what occurred 1, 2 or 3 years prior.
    Mr. Mica. Chief Mina.
    Chief Mina. Yeah. And just again, that we ask that more 
weight be given in the formula to the 66 million visitors. And 
also, I think it was important to mention that the Orlando FBI 
offices run out of Tampa. So that those--the investigations and 
intelligence received through Orlando are actually attributed 
to and out of the Tampa office. So we would like that to be 
looked at as well.
    Mr. Mica. Thank you. Mr. Purdy.
    Mr. Purdy. I think one of the issues here is metrics, 
factors, formulas of risk and threat. And maybe if the 
Secretary of Homeland Security had more discretion, maybe some 
of those funds would then be able to be allocated to maybe 
those Tier II cities and regions that maybe need some of these 
things.
    Congressman Lynch was spot on the money when he talked 
about soft targets. You know, terrorists are looking at 
targets. We harden stuff with UASI money and then they look at, 
okay, nightclubs, in Paris, a stadium, nightclubs, restaurants, 
a concert hall. So they're also looking to see what we're 
doing, and they're very adaptive. So we spend money to harden 
something, but we also have to think of an evolving process. 
And so maybe the Secretary does need more discretion, and 
Congress can give him that.
    Mr. Mica. Thank you. Any quick comment, Mr. Kamoie?
    Mr. Kamoie. No. We look forward to continuing to work with 
the sheriff, with the police chief, with the Orlando community, 
and the other urban area jurisdictions to secure our 
communities.
    Mr. Mica. Okay. We always have these hearings and then 
people wonder what's coming from it. I want to thank Mr. Lynch. 
He's agreed to sign on with myself. Chairman Chaffetz last 
night agreed to be a cosigner of a letter to the inspector 
general.
    And we're going to ask for three things to follow up this 
hearing: One, we're going to ask for a review of the assessment 
process. Somewhere we're missing the mark. The assessment 
hasn't caught up with what the terrorists are doing and hitting 
us in these soft targets. So somehow we've got to do that.
    We also have the issue of the discretion for the Secretary. 
We need to look at that congressionally. We do have, with the 
amendment that I've offered, which is in the DHS appropriations 
bill, some look-see from Congress, but we may want to go beyond 
that.
    The second thing we want the inspector general to look at 
is the leftover money. We have money back to 2011. Maybe if you 
don't use it you lose it or it becomes redistributed. When I 
saw the chart again this morning that they had shown me when 
they did the final analysis, we've got about a third of the 
money, over a billion dollars sitting behind. That's not 
acceptable. These people are after us. We've got to stay ahead 
of them with every resource possible. It can't be sitting 
somewhere. So that's the second thing.
    And then we've seen some wasteful spending. That last 
report was 2012. We want that updated. People can't waste the 
money. It has to be effectively expended to target our needs to 
combat terrorism and get the funds to the local government.
    So we can't afford not to get it right here. We've got to 
get it right. There have been multiple Federal failures. This 
hearing only looks at one of them. I have a letter, and we'll 
make it part without objection, I hope, to Chairman Goodlatte 
and also to Chairman Chaffetz, to look at the elements that I 
don't have jurisdiction, your subcommittee might, but under the 
judiciary looking at the FBI and some of the failures there: 
Our watch list that failed; our identification of somebody who 
posed a risk and months of investigation and then nothing done 
to track them.
    So we've got to get that right. So I'm going to put in the 
record a letter that I submitted on June 29 to Chairman 
Goodlatte and also shared with Chairman Chaffetz to follow up, 
so we look at that.
    Mr. Mica. Other items. I just wanted to put into in the 
record--people wonder sometimes what me, Mr. Lynch and others 
are doing to combat terrorism. And I got this just this week, a 
summary of the Homeland Security Committee. These are select 
counterterrorism bills. Every one of these bills, 1, 2, 3, 4, 
5, 6, 7, 8, 9, there must be 20 of them, I want to put this in 
the record. These are bills that were passed, we voted on to 
deal with terrorism. Unfortunately, many of them are sitting in 
the Senate, but we have not neglected trying to change laws and 
our approach from a legislative standpoint. So, without 
objection, I would like to put that in the record. Thank you.
    Mr. Mica. And then finally, this was just released that 
says ``for official use only,'' and if we could put this in the 
record or refer to it, this is the 2016 allocation of Urban 
Security Grant funds and threat levels. This was just released 
a couple weeks ago. Orlando is not on the list. We've got 
something wrong that needs to be corrected. So we have some 
challenges. People are counting on us. Our Nation is under 
attack, our communities under attack.
    Mr. Mica. I can't end the hearing without thanking my two 
local law enforcement guys. They have been there. Even before 
that attack took place in Orlando, the worst terrorist massacre 
since 9/11, they were there. They warned us. The Federal 
Government didn't hear it. And now we'll probably get hunting, 
we'll probably make these changes, but 49 people aren't with us 
and their families are suffering. And we missed the mark in 
Boston, we missed it in San Bernardino and others, so we've got 
to do a better job.
    I thank every one of you, on behalf of the committee, on 
behalf of the Congress, for coming and testifying and working 
together. I am very confident we can get it right and meet this 
challenge.
    There being no further business before the joint 
subcommittee hearing today, again, thank you, this hearing is 
adjourned.
    [Whereupon, at 10:38 a.m., the subcommittee was adjourned.]


                                APPENDIX

                              ----------                              


               Material Submitted for the Hearing Record
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
